OIG Investigative Reports, Michael Cortez, Cedar Rapids Man Sentenced To Prison for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
Northern District of Iowa
FOR IMMEDIATE RELEASE:
January 14, 2011
www.justice.gov/usao/ian
Contact: Bob Teig
Hach Building,
Suite 400,
401 1st Street, S.E.
Cedar Rapids, Iowa 52401-1825
Phone: (319) 363-0091
Fax:  (319) 363-1990
Michael Cortez, Cedar Rapids Man Sentenced To Prison for Student Loan Fraud
A man who participated with others in a scheme to fraudulently obtain federal student loans pled guilty today in federal court in Cedar Rapids
Michael Cortez, 31, from Cedar Rapids, was convicted of one count of mail fraud.
At the guilty plea hearing, Cortez admitted participating in a scheme with others to fraudulently obtain federal student loan money. As part of the scheme, Cortez and others applied for federal student aid in other people’s names and arranged for a federal loan proceeds check to be directed to a post office box under his and his co-schemer’s control.
Sentencing before United States District Court Chief Judge Linda R. Reade will be set after a presentence report is prepared. Cortez remains free on bond pending sentencing. Cortez faces a possible maximum sentence of 20 years’ imprisonment without the possibility of parole; a fine of up to (a) twice the gross gain resulting from the offense, (b) twice the gross loss resulting from the offense, or (c) $250,000; a mandatory special assessment of $100; and a term of supervised release of up to 3 years.
The case is being prosecuted by Assistant United States Attorney Peter E. Deegan, Jr. and was investigated by the United States Department of Education and the United States Postal Inspection Service.
Court file information is available at https://ecf.iand.uscourts.gov/cgi-bin/login.pl. The case file number is CR11-2.
Printable view
Last Modified: 01/27/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov